Number

In The
Supreme Court of the United States
Samuel Collin Robinson,
Petitioner
v
Katherine Lyman Robinson,
Respondent

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), the
undersigned does declare that the ratable portions of
the enclosed PETITION FOR A WRIT OF
CERTIORARI are together comprised of 1,887 words,
being fewer than the 9,000 allowed. The foregoing is
declared to be correct, under penalty of perjury.

Samuel Collin Robinson
Petitioner

*2^/7, 0*1,10
Date

